                                  Office of Inspector General
                                                          February 2014

Business Loans                                Two Plead Guilty to Fraud                  ern California gas stations. The bank
                                              On February 10, 2014, the president of     allegedly was misled into believing that
                                              a California gas station and car wash      the phony owner made a $2.1 million
Man Pleads Guilty to Wire Fraud & False       pled guilty to bank fraud. On February     down payment to purchase the two gas
Statements                                    19, 2014, her daughter pled guilty to      stations. In addition, the father and
On February 3, 2014, a Louisiana man          wire fraud. The president previously       daughter allegedly skimmed large por-
pled guilty to wire fraud and making a        had been indicted for mail fraud, bank     tions of cash from the business for per-
false statement to the SBA. According to      fraud, false statements, making false      sonal expenses, which included pay-
a referral from the SBA National Guaran-      statements in a loan application, mak-     ments to criminal defense attorneys who
ty Purchase Center, the man’s business        ing false statements to obtain an SBA      were representing them in the first case.
made an offer in compromise of a              loan, and aiding and abetting. The in-     These new allegations are being investi-
$10,000 lump sum payment to satisfy a         dictment alleged that the president, her   gated jointly with the FBI.
$511,400 balance on an SBA guaranteed         daughter, her husband, and another
loan. He allegedly sold the collateral        man executed a scheme to defraud the       Kansas Couple Indicted on Charges of
business personal property without the        SBA, a bank, and a financing corpora-      Conspiracy & Money Laundering
lender’s knowledge. The investigation         tion by making false statements to ob-     On February 20, 2014, a Kansas couple
determined that he misrepresented the         tain business loans for the business.      was indicted for conspiracy to commit
value of the collateral for this loan and                                                bank fraud and money laundering. The
then sold it to another furniture store he    The investigation found that the presi-    wife was allegedly used a nominee bor-
owned. The man also falsely represent-        dent and her daughter made false           rower to obtain a $163,924 SBA Express
ed that he sold the second store and          statements on an application for an SBA    loan for a construction company owned
provided false financial information to       guaranteed loan from the bank. They        and operated by her husband. Although
the lender and the SBA when submitting        falsely reported that neither they nor     the loan’s stated purpose was equip-
the offer in compromise.                      their businesses were involved in any      ment purchases, the proceeds allegedly
                                              bankruptcies or pending lawsuits and       were diverted to pay off equipment
                                              did not have a controlling interest in     loans and make payments on construc-
Former SBA Branch Manager Pleads              other businesses. The four individuals     tion loans held in the name of the hus-
Guilty                                        also made material false statements to     band’s various business entities, as well
On February 3, 2014, a former SBA             obtain another business loan for the gas   as for the couple’s personal use. This is
branch manager in Missouri pled guilty        station from a financing corporation.      a joint investigation with the Federal
by entering a nolo contendere plea for        The loss to the financing corporation      Deposit Insurance Corporation OIG, the
submitting a false document to the SBA.       was approximately $1.65 million and        Internal Revenue Service, and the U.S.
He had falsely reported to the SBA on his     the loss to the bank and the SBA was       Secret Service.
Confidential Financial Disclosure Report      approximately $1.45 million. Of the
that he had no reportable liabilities and     $1.45 million, the SBA-guaranteed por-
no reportable outside positions when, in                                                 Alabama Man Pleads Guilty to Fraud
                                              tion was approximately $931,368.
fact, he was the managing member of a                                                    On February 27, 2014, an Alabama man
custard stand in Texas. He had also ob-                                                  pled guilty to wire fraud and bank fraud.
                                              The husband, daughter, and others
tained an $80,000 SBA guaranteed loan                                                    As part of a plea agreement, he agreed
                                              were charged in a superseding indict-
for this business. The manager was pre-                                                  to pay restitution of $3,085,000 and con-
                                              ment for trying to defraud yet another
viously indicted for bank fraud, making                                                  sented to a forfeiture of $1,760,000.
                                              bank and the SBA while the original
false statements, money laundering, and                                                  The man obtained a $1,760,000 Section
                                              case was pending trial. The husband
conspiracy. He is one of 17 people                                                       504 loan for his grocery store. As a con-
                                              and daughter allegedly paid an individu-
charged in this investigation and is the                                                 dition of this loan, he was required to
                                              al $100,000 to pose as the owner of a
last defendant to enter a guilty plea.                                                   pay at least $736,920 in cash injection.
                                              petroleum business and apply for a $4.5
This is a joint investigation with the Fed-                                              After making only one payment, he de-
                                              million SBA loan to purchase two South-
eral Bureau of Investigation (FBI).                                                      faulted on the loan.
                                                                                                                       Page 2

                          As documentation that he          loan closings during       the    pany’s behalf, and did not
                          had paid his cash injection, he   agreement’s pendency.             exercise a controlling interest
                          submitted copies of six can-                                        in it. The Texas man used the
                          celled     checks      totaling   The owner was part of a           firm’s fraudulently obtained
                          $564,745, which allegedly         scheme to obtain, fraudulent-     SDVOSB status to secure
                          showed payments made to           ly, SBA guaranteed loans,         nearly $1,329,000 in funds
                          vendors in connection with        which has resulted in over        through Department of Vet-
                          the grocery store’s construc-     $100 million in losses. Be-       erans Affairs (VA) contracts.
                          tion.    When these copies        sides the owner, the scheme
                          were compared with copies         included a loan brokerage         Owner of California
                          of the checks obtained from       company, the two brothers         Architectural Firm Charged
                          his financial institution, the    who owned the company,            for Violations of
                          investigation discovered that     and an attorney who owned a       Anti-Kickback Act
                          checks bearing the same           Virginia title company. The       On February 11, 2014, the
                          check numbers had a com-          conspirators encouraged pro-      owner of a California archi-
                          bined face value of approxi-      spective borrowers to apply       tectural firm was charged
                          mately $16,700. This amount       for Section 7(a) business         with violating the Anti-
                          was far less than the             loans but submitted loan ap-      Kickback Act. The architec-
                          $564,745 reported to the          plications and supporting         tural firm’s owner and four
                          SBA, and the checks were          documentation       containing    other subcontractors were
                          payable to different entities     fraudulent personal financial     charged in connection with a
                          than those identified on the      information to loan origina-      bribery and kickback scheme
                          checks supplied to the SBA.       tors and underwriters on be-      at a military base and other
                          Not only was the evidence of      half of their clients, thereby    federal facilities. The owner
                          cash injection fraudulent, but    falsely enhancing the credit-     was specifically charged with
                          the man inflated construction     worthiness of the borrowers       knowingly       and    willfully
                          bids prior to their submission    and their businesses. This is a   providing a $5,000 check
                          to the SBA. Finally, one con-     joint investigation with the      (kickback) to a prime contrac-
                          tractor alleged that the man      U.S. Postal Inspection Service    tor.
                          forged his signature on draws     and the FBI.
                                                                                              This investigation originated
                          submitted to the lender. This
                                                                                              from allegations that 8(a)
                          investigation, based on a re-     Government                        contractors were receiving
  California Man and      ferral from the SBA Little
                          Rock Commercial Loan Servic-      Contracting                       kickbacks from subcontrac-
 Others Charged With                                                                          tors. Additional allegations of
                          ing Center, was a joint inves-
                                                                                              bribery of a public official
  Violating the Anti-     tigation with the FBI.            Texas Man Pleads Guilty to        developed during the investi-
    Kickback Act in                                         Making False Statements           gation. Moreover, because of
                                                            On February 7, 2014, a Texas      this investigation, the Depart-
Connection with Bribery   Owner of a Maryland Title         man pled guilty to making         ment of the Navy suspended
                          Company Enters into a             false statements to federal
 and Kickback Scheme                                                                          seven individuals and six
                          Deferred Prosecution              agencies. In early 2009, he       companies during February
                          Agreement                         had recruited a service-          2014. The is a joint investiga-
                          On February 28, 2014, the         disabled veteran to be a part-    tion with the FBI, Naval Crimi-
                          owner of a Maryland title         ner in a service-disabled vet-    nal Investigative Service
                          company entered into a De-        eran-owned small business         (NCIS), Internal Revenue Ser-
                          ferred Prosecution Agree-         (SDVOSB). The veteran, be-        vice Criminal Investigation
                          ment (DPA). The DPA re-           lieving he was to be a silent     (IRS CI), Defense Criminal
                          quires that the owner pay a       partner, agreed to be part of     Investigative Service (DCIS),
                          $75,000 monetary penalty to       the SBVOSB. In reality, the       and the General Services Ad-
                          the United States and agree       veteran had no financial in-      ministration (GSA) OIG.
                          to refrain from conducting        vestment in the firm, per-
                          any residential or commercial     formed no work on the com-
                                                                                                                         Page 3

                                                            ordered to forfeit $1,065,104
                          North Carolina Woman              in personal proceeds from
                                                                                               Former President of Idaho
                          Indicted on Fraud and             the conspiracy.
                                                                                               Construction Firm Sentenced
                          Identity Theft
                                                                                               to 84 Months
                          On February 11, 2014, a           Specifically, he and employ-
                          North Carolina woman was          ees of other SDVOSBs con-          On February 27, 2014, the
                          indicted for major fraud          spired to submit what ap-          former president and majori-
                          against the government,           peared to be competing bids        ty shareholder of an Idaho
                          making false statements, wire     for government contracts,          construction company was
                          fraud, mail fraud, and aggra-     when in fact they knew the         sentenced to 84 months in
                          vated identity theft.      The    bids were not competitive.         prison followed by three
                          woman, as the owner of a          They would identify govern-        years of supervised release
                          masonry firm, allegedly creat-    ment contracts to bid on and       for conspiracy, wire fraud,
                          ed a construction company in      prepare bids for one another       and mail fraud. She was also
                          order to obtain two small         using the bid templates of the     sentenced to 24 months in
                          business subcontracts on a        other. The subject employee        prison for tax fraud and ob-
                          Department of Navy contract.      would then direct other            struction of justice followed
                          She created the construction      SDVOSB employees to submit         by three years of supervised
                          company after a $14 million       the completed bids to the          release. The sentences will
                          subcontract was awarded to        government as their own. All       run concurrently. In addition,
                          her masonry firm. Moreover,       of them knew and under-            she was ordered to pay
                          she offered the use of the        stood that these bids were         $98,825 in restitution to the
                          construction company to re-       not true competitive bids.         IRS, $32,575 to the Idaho
                          place the masonry firm in         This practice restricted legiti-   Disadvantaged Business En-
                          exchange for a two percent        mate competition by creating       terprises (DBE) Program, and
                          fee. In 2010, she mailed a        the false impression that the      $22,859 in prosecution costs.
                          falsified North Carolina His-     government had already re-         She also entered into an
                          torically Underutilized Busi-     ceived multiple competing          agreement, which stipulated
                          ness Zone (HUBZone) applica-      bids.                              a $3,084,038 forfeiture that
                          tion, with numerous fraudu-                                          she paid prior to sentencing.
                          lently altered supporting doc-    In addition, he worked with        She had previously been con-
                          uments, on behalf of the con-     co-conspirators within the         victed of filing false individual
  Former President of     struction company. She also       government to gain access to       and corporate tax returns,
Idaho Construction Firm   forged her daughter’s signa-      documents such as Internal         conspiracy to defraud the
Sentenced to 84 months    ture on documents related to      Government Cost Estimates          United States, wire fraud,
   and Forfeits Over      that company. This is a joint     in advance of bidding on con-      mail fraud, making a false
       $3 Million         investigation with the DCIS       tracts and drafted portions of     statement, interstate trans-
                          and the NCIS.                     internal government procure-       portation of property taken
                                                            ment documents. Finally, he        by fraud, conspiracy to ob-
                                                            agreed to pay co-conspirators      struct justice, and obstruction
                          Former Employee of SDVOSB
                                                            working within the govern-         of justice.
                          Firm Sentenced and Ordered
                                                            ment for his competitive ad-
                          to Forfeit Over $1 Million
                                                            vantage on contracts that          The former president had
                          On February 21, 2014, a for-
                                                            totaled approximately $33          taken steps to lower her per-
                          mer employee of a Virginia-
                                                            million. He gained at least        sonal net worth, artificially,
                          based      contractor      that
                                                            $1,065,104 because of his          by acquiring, holding, and
                          claimed SDVOSB status was
                                                            participation in the conspira-     transferring assets into the
                          sentenced to sixteen months
                                                            cy. This is a joint investiga-     names of nominees in order
                          in prison, followed by two
                                                            tion with the Department of        to appear to be economically
                          years of supervised release,
                                                            Homeland Security OIG, VA          disadvantaged. This allowed
                          for conspiracy to commit wire
                                                            OIG, GSA OIG, and the De-          her firm to qualify for the
                          fraud and major fraud against
                                                            partment of Justice.               Department of Transporta-
                          the government. He was also
                                                                                                                            Page 4

tion’s (DOT) DBE and the SBA      Disaster                         The man admitted that in          joint investigation with the
8(a) programs.       She also                                      2005, he learned that an ex-      NASA OIG, the DCIS, and the
caused false and fraudulent                                        ecutive at a security service-    U.S. Department of Home-
                                  Louisiana Woman Charged          consulting firm illegally con-
tax returns to be filed for                                                                          land Security OIG.
                                  with Theft of Government         trolled another such compa-
herself and the company,
                                  Funds                            ny. The second firm was a
which did not report all in-
                                  On February 6, 2014, a Louisi-   participant in the SBA Section
come received by her or the
                                  ana woman was charged with       8(a) program, which provides
company. The false returns
                                  theft of government funds.       preferential contracting treat-
and financial statements
                                  The woman had been ap-           ment for minority-owned and
were submitted in support of
                                  proved for a $98,700 home        disadvantaged small busi-
the firm’s applications to the
                                  disaster assistance loan to      nesses. Although the execu-
8(a) program and the DBE
                                  repair her residence, which      tive at the first company con-
program for Idaho and Utah.
                                  had incurred damages from        trolled the second company,
During a 26-day trial, the gov-   Hurricane Isaac. She received    the second firm had obtained
ernment presented evidence        $50,000 in loan proceeds         its 8(a) status based on the
that she omitted, deleted,        before the fraud was detect-     disadvantaged status of a
altered, and miscategorized       ed. The investigation found      nominal owner.
entries in her firm’s financial   that the woman submitted
records. She also concealed       false documents to the SBA       The Florida man admitted he
her role or relationship in       to obtain loan proceeds and      agreed to pay the executive
other business entities that      that her contractor provided     and the second firm a fee for
dealt with her company.           false repair verifications to    allowing him to use its 8(a)
Consequently, the firm re-        the SBA Processing and Dis-      status to obtain National Aer-
ceived more than $2.5 million     bursement Center (PDC) in        onautics and Space Admin-
in federal government con-        Fort Worth, TX. The contrac-     istration (NASA) and other
tracts based on the compa-        tor subsequently admitted to     U.S. government contracts.
ny's fraudulently obtained 8      falsifying $84,121 in bids,      Although the second firm was
(a) status and more than $15      invoices, and repairs at the     required to perform at least
million in state government       woman’s request. The inves-      50 percent of the work on the
contracts based on the com-       tigation originated from a       contracts and had represent-
pany's fraudulently obtained      referral by the PDC.             ed it would do so, none of its
DBE status in Idaho and Utah.                                      employees performed any
The government also pre-          Man Sentenced to 60 Months       work. Instead, the Florida
sented evidence that to im-       for Role in 8(a) Scheme &        man and others did all of the
pede an IRS audit of the firm     Ordered      to      Forfeit     work as independent contrac-
and a criminal investigation      $2,960,697                       tors but concealed that fact
of her, she and the minority                                       from the government agen-
                                  On February 28, 2014, a Flori-   cies. In addition, he sub-
shareholder conspired to
                                  da man was sentenced in          mitted fraudulent proposals
obstruct justice by fabricating
                                  Virginia to 60 months incar-     and invoices to hide their
documents and making false
                                  ceration followed by 24          scheme, used a third-party
statements that sought to
                                  months of supervised release,    company’s Federal Employer
conceal the true nature,
                                  and was ordered to pay a         Identification Number to pre-
source, and extent of proper-
                                  $12,500 fine and a forfeiture    vent reporting of his contrac-
ty belonging to her. This was
                                  of $2,960,697. He had previ-     tor income to the IRS, and did
a joint investigation with IRS
                                  ously pled guilty to major       not pay any income taxes on
CI, DOT OIG, and the FBI.
                                  fraud against the govern-        the income he received from
             ***                  ment.                            the second firm. This is a
                                                                                                                                      Page 5


Agency Management
Audit Report 14-10: The SBA Did Not Follow Regulations and Guidance in the Acquisition of the OneTrack System
On February 12, 2014, the OIG issued Audit Report 14-10, The SBA Did Not Follow Regulations and Guidance in the Acquisition of
the OneTrack System. The objective of the audit was to assess the SBA’s compliance with Federal contracting regulations and guid-
ance over Information Technology systems acquisition and project oversight. The OIG determined that the SBA did not follow fed-
eral regulations and guidance in its acquisition of the OneTrack system for use by the Business Development (BD), HUBZone, and
three new Mentor-Protégé Programs. As a result, the SBA did not receive a system with full capabilities as originally designed. The
original OneTrack system should have been completed in a 12-month period at a total cost of around $1.17 million. Instead, the
SBA modified the task order to receive a system with the same, limited functions as the existing system in use, the Business Devel-
opment Management Information System (BDMIS). However, the SBA still did not have a tested and approved system—that in-
cluded existing BDMIS capabilities—to put into production when the task order expired. To date, the SBA has increased the total
cost of the system by approximately $734,000 and extended the performance of the acquisition by 14 months. The OIG made four
recommendations, and the SBA agreed with each of the recommendations.




                                                    Office of Inspector General
                                                        Peggy E. Gustafson
                                                         Inspector General
                                                              ***
                                         To promote integrity, economy, and efficiency,
                   we encourage you to report suspected instances of fraud, waste, abuse, or mismanagement I
                                           n any SBA program to the OIG Hotline* at

                                         http://www.sba.gov/office-of-inspector-general/2662
                                           Or call the OIG Hotline toll-free, at (800) 767-0385

*In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of a complainant’s personally identifying
information is mandatory, absent express consent by the complainant authorizing the release of such information.




                           We welcome your comments concerning this update or other OIG publications.
                                    To obtain copies of these documents please contact us at:

                                                   SBA Office of Inspector General
                                                   409 Third Street SW, 7th Floor
                                                       Washington, DC 20416
                                                        E-mail: oig@sba.gov
                                          Telephone: (202) 205-6586 FAX (202) 205-7382
                                        Many OIG reports can be found on the OIG’s website at
                                          http://www.sba.gov/office-of-inspector-general

                                   To view recent press releases, click here, or visit our website at
                                        http://www.sba.gov/office-of-inspector-general/17611
